                                                      NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

    Case Number: A03100059                                                                Page 1 of 1


            We conducted a n investigation into a n allegation of research-related fraud and false
            statements and concluded the subject had misrepresented his research to NSF,
            specifically, it was alleged a PI1 falsified multiple final project reports to NSF to assert
            that he had engaged in a foreign collaboration, when in fact, he had not done so. When
            we questioned him about the existence of his collaboration, he again provided false
            information i n a n affidavit.
            We referred the matter to the United States Attorney's Office, which declined
            prosecution in lieu of strong administrative action. We notified his home institution
            which concluded his actions warranted prohibition from serving a s a PI or co-PI on
            future federal proposals. However, if the PI left his institution, the prohibition by his
            former institution would no longer prevent him from serving a s a PI or co-PI on other
            federal awards. Therefore, we recommended NSF take action to protect its interests.

~
            NSF agreed to do so, and debarred the PI for 3 years.
            Accordingly, this case is closed. This memorandum, the Deputy Director's
            adjudication, and our debarment memorandum constitute the closeout for this case.




                1 Dr.   Raafat Malek is a researcher a t Pennsylvania State University.
                                                                     1




    VSF OIG Form 2 (11/02)
                                .       .

                                            NATIONAL SCIENCE FOUNDATION
                                                  4201 WILSON BOULEVARD          :
                            .       .       .   .ARLINGTON,VIRGINIA 22230'   ,       .:




                                                     FEB 2 6 2008
       OFFICE OF THE
I     DEPUTY DIRECTOR




    VIA CERTIFIED MAIL - RETURN RECEIPT REQIJESTED

    Dr. Raafat I. Malek
    Materials Research Institute




          .Re: Debarment

    Dear Dr. Malek:

    On December 19,2007, the National Science Foundation ("NSF") sent you a Notice of Proposed
    Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
    of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
    giving rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the
    Notice that the proposed debannent is based upon your submission of multiple false reports in
    connection with a hnded proposal. In that Notice, NSF provided you with thirty days to respond
    to the proposed debarment.

    Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
    debarred until February 15,201 1. Debannent precludes you from receiving Federal financial and
    non-financial assistance and benefits under non-procurement Federal programs and activities
    unless an agency head or authorized designee makes a determination to grant an exception in
    accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
    cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
    subsidies, insurance, payments for specified use, and donation agreements.

    In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
    the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart 9.4 for the period of this
    debarment. 2 CFR Section 180.170. During the debannent period, you may not have
    supervisory responsibility, primary management, substantive control over, or critical influence
           -I
.¢.~   ,




                    ."                                              '       .                 .".
                .                                          .                    '         ,
                         .       .           -              "                                          .

                on, a grant, contract, or cooperative agreement with any agency of the Executive grandi ofthe
                Federal Goveminent.

                If you have any questions regarding the foregoing, please contact          Assistant General
                Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
                Room 1265, Arlington, Virginia, 22230.                            .




                                                                   Sincerely,

                                                                  '~2,O~
                                                                   Kathie L. Olsen
                                                                   Deputy Director
    Y'       il
d        ,
                                                 NATIONALSCIENCE FOLINDATDN
                                                        4201 WILSON BOULEVARD
                                                   ,   ARLINGTON, VIRGINIA 22230




                     OFFICE OF THE
                    DEPUTY DIRECTOR




                  CERTIFIED MAIL --RETURN RECEIPT REQUESTED

                  Dr. Raafat I. Malek
                  Materials Research Institute




                         Re: Notice of Proposed Debarment

                  Dear Dr. Malek:

                  In 1999, the Pelu~sylvaniaState University submitted a proposal to the National Science
                  Foundation ("NSF" or the "Foundation") entitled,
                                                         for which you were identified as the Principal
                  Investigator. This proposal was funded. As documented in the attached investigative report
                  prepared by NSF's Office of Inspector General ("OIG"), you submitted multiple false reports to
                  NSF in connection with this proposal.

                  In light of your misconduct, this letter serves as formal notice that'the National Science
                  Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
                  of Federal grants for a period of three years. During your period of debarment, you will be
                  precluded &om receiving Federal financial and non-financial assistance and benefits under non-
                  procurement Federal programs and activities. In addition, you will be prohibited from receiving
                  any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
                  ("FAR). Lastly, during your debarment period, you will be barred from having supervisory
                  responsibility, primary management, substantive control over, or critical influence on, a grant,
                  contract, or cooperative agreement with any agency of the Executive Branch of the Federal
                  Government.
           't
* ...


                                                                                                   . Page2
        . Regulatory Basis for Debarment

         Pursuant to 2 CFR 180.800, debannent may be imposed for:

                (b) 	   Violation of the tenns ofa public agreement or transactlonso serOUS as to affect
                        the integrity of an agency program, such as - .

                        (1) 	   A willful failure to per-fonn in accordance with the tenns of one or more
                                public agreements or transactions; or


                        (3)    A willful violation of a statutory or regulatory provision or requirement
                        applicable to a public agreement or transaction



                (d) 	   Any other cause of so seriouS or compelling a nature that it affects your present
                        responsibility.

         In any debannent action, the government must establish the cause for debannent by a
         preponderance of the evidence. 2 CFR 180.850. In this case, you made multiple false
          statements and representations in connection with a grant proposal submitted to the Foundation.
          Thus, your action supports a cause for debannent under 2 CFR 180.800(b)and 2 CFR
        . 180.800(d). 	                                                                      .


         Length ofDebarment

         Debannent must be for a period commensurate with the seriousness of the causes upon which an
         individual's debannent is based. 2 CFR 180.865. Generally, a period of debannent should not
         exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
         180.865. Havingconsidered the seriousness of your actions, as well as the relevant aggravating
         and mitigating factors set forth in 2 CFR 180.860, we are proposing debannent for a period of
         three years.


         Procedures Governing Proposed Debarment.

           The provisions of2 CFR Sections 180.800 through 180.885 govern debannent procedures and
           decision-making. Under these regulations, you have 30 days after receipt of this notice to
           submit, in person or in writing, or through a representative, infonnation and argument in
           opposition to this debannent. 2 CFR 180;820. Comments submitted within the 30-day period
         . will receive full consideration and may lead to a revision of the proposed disposition. IfNSF
           does not receive a response to this notice within the 30-day period, this debannent will become
final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.

Should you have any questions about the foregoing, please contact          , Assistant General
Counsel, at (703) 292     .



                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director


Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
           National Science
              Foundation
      Office of Inspector General




                    Confidential
              Debarment Memorandum
              Case Number A03100059
                                  30 July 2007
     This Confidentla1Mepowdurn is the property of the NSF OIG arbd my be hclqsed autiide NSF only               ,   ,/



              by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C fi$552,552a.
I1                                                                                                          I1
                                                                                    NSF OIG Form 22b (1 1106)
                           Executive Surnmarv


Allegations     Falsification of Annual and Final Project Reports to NSF;
                Falsification of a n affidavit; Unauthorized reallocation of
                participant support funds.

OIG
Investigation   The Office of Inspector General (OIG) concluded the Subject:
                1.    Received a n       grant for collaborative research, but
                      failed to collaborate with the named international
                      scientist;
                2.    Made false statements regarding the collaboration in one
                      annual report, three versions of his final project report, a n
                      interview with OIG investigators, and a signed affidavit
                      provided to OIG investigators; and
                3.    Reallocated the participant support funding, designated
                      for the international scientist, to his own research without
                      NSF approval.
                Because the Subject made false statements to the government,
                we referred the matter to the United States Attorney's Office
                (USAO) for the Eastern District of Virginia. The USAO declined
                prosecution in lieu of administrative action by NSF. After the
                declination, we notified the University of the Subject's actions.

University
Action          The University barred the Subject from serving a s a PI, co-PI, or
                budget executive on any future federal or state grants, and
                reimbursed NSF $6,720 for the reallocated participant support
                costs.

OIG
Recommends      Pursuant to 2 C.F.R. !j 180 et seq, OIG recommends t h a t NSF:
                      Debar the Subject for 3 years; and
                      Prohibit the Subject from serving a s a peer reviewer
                      advisor or consultant for 3 years from the final disposition
                      of this case.
                                       OIG Investigation
Background
     On 31 October 2003, the Office of Inspector General (OIG) Office of Audit
referred to OIG Office of Investigations a matter involving potential problems with
a n NSF grant.1 The auditor was concerned about the accuracy of the final project
report. The grant was awarded through NSF's
         . I n his grant proposal, the Principal Investigator (PI) (the Subject)2
proposed collaborative research with a n             researcher (ER),3 and the grant
included participant support for ER's travel to the United States.
      We interviewed the cognizant NSF Program Manager (PM)4 in January 2004
who told us he had visited            i n October 2003 (after the expiration of the award)
and met ER, with whom the Subject had reportedly collaborated. ER told PM: (i) he
did not know he was listed on the NSF grant a s a collaborator of the Subject, and
(ii) had not even heard from the Subject, much less collaborated with him. PM told
us t h a t the Subject had filed a n annual report,5 a final project report (FPR1),6 and a
revised final project report (FPR2),7 all listing ER a s a collaborator.
     Based upon the information he received from ER, PM rejected the Subject's
FPR2 and asked the Subject to provide more information regarding the
collaboration.Vn response, the Subject submitted a third final project report
(FPR3),9 i n which he continued to list ER a s a collaborator. PM also rejected the
third final project report because it continued to list ER a s collaborator, and
informed the Subject t h a t "more specifics on the collaboration with the identified
foreign collaborator are required."lO
     At this point in time, OIG investigators contacted the Subject to arrange a n
interview with him a t his office. J u s t prior to this scheduled interview, the Subject
submitted a fourth final project report (FPR4).11 Unlike the previous versions of the
final project reports, FPR4 did not list ER a s a collaborator. Instead, he listed




                   . The proposal was awarded for        , with $6,720 designated as Participant
Support. The award was effective                and expired                A copy of the proposal is
Appendix (A).
2 Dr. R.I. Malek is a researcher a t Pennsylvania State University's [redacted].
3 [redacted].
4 [redacted] is a Program Manager in the Office of
NSF.
5 The only annual report was submitted 23 May 01. See Appendix (B).
6 The first version of the FPR was submitted 18 Aug 03. See Appendix (C).
  The second version of the FPR was submitted 9 Sep 03. See Appendix (D).
8 The PM's first rejection was 15 Oct 03. See Appendix (E).
9 The t h r d version of the FPR was submitted 27 Oct 03. See Appendix (F).
10 The PM's second rejection was 11 Dec 03. See Appendix (G).
11 The fourth version of the FPR was submitted 19 Feb 04. See Appendix (H).
another individua1,lZ who had not been listed on any of the prior final project
reports, a s contributing more than 160 hours to the project.
      During the Subject's interview with OIG, he insisted he collaborated with ER.
When asked for evidence of his collaboration, the Subject claimed he did not know
what constituted collaboration, or what proof of one might be. OIG investigators
asked if the Subject could provide. any email correspondence, letters, documentation
of telephone calls, physical samples, and/or lab tests carried out or analyzed by ER,
to demonstrate any level of collaboration between himself and ER, but the Subject
was unable to produce any evidence of collaboration. Rather, the Subject asserted
he made a n attempt to collaborate with ER through ER's supervisor,l3 but due to
restrictions of foreign travel after 9/11/2001, ER was unable to visit. Despite the
fact t h a t ER did not visit or communicate with him, the Subject still claimed he
collaborated with ER.                                i
     At the conclusion of the interview, the Subject drafted and signed all affidavit
affirming to the truth of his statements therein.14 OIG investigators told the
Subject he was free to provide any evidence he might discover after the visit. He
subsequently provided a draft manuscript with himself and ER listed a s co-authors.
     OIG then contacted ER to corroborate the Subject's statements. ER provided a
written statement confirming he was not aware he was listed a s a collaborator on
the Subject's project and was not even aware of the project i n general.15 ER stated
"[tlhere was no collaboration a t all between [the Subject] and myself during the
period May 2000 and April 2003."16 He noted the individual identified by the
Subject a s his supervisor "was never my supervisor" and he did not hear about a n
invitation to collaborate or visit either directly from the Subject or from the alleged
supervisor. ER asked the alleged supervisor if he recalled receiving a n invitation,
and he did not.
     ER further stated the Subject did not contact him until November 2003 (after
the expiration of the award and after the initiation of our investigation) proposing a
collaboration. He added that the Subject sent him a n abstract of a proposed paper
in March 2004, also several months after the award had closed. Moreover, the
Subject informed ER that he would be attending a conference i n           i n April
2004, but the Subject never contacted ER to arrange a meeting during his visit.



l2 [redacted], who we later learned was the [redacted].
13 [redacted]. At the Subject's request, the University emailed an invitation to ER through [redacted]
on 7 Aug 2002. (See Appendix I) There was no follow-up of this email to [redacted] with a letter or
fax. There was no confirmation the email was delivered. The University never received a response
from [redacted]. ER said he did not receive this email from [redacted]. We made numerous attempts
to contact [redacted] (via email, telephone, and Federal Express) to ask him whether he had received
this email, but we never received a response.
14 Appendix J.
15 Appendix K.
16 Ibid.
      OIG investigators re-interviewed PM to ascertain the materiality of the
proposed collaboration on his decision to fund the project. PM stated: "The goal of
the US-        joint research program is to support research projects carried out
jointly by American and            scientists," and t h a t his "Office does not fund
research in this program just for the research; there must be a foreign
collaborator."l7 He added that a n important factor is "[tlhe synergy of the
collaboration between the U.S. and foreign scientists. . . . under this program, we
would only fund a US researcher who was going to collaborate with
collaborator."l~Therefore, the PM would not have funded this award but for the
collaboration with ER.
    Finally, upon review of the financial documentation associated with the award,
NSF OIG learned the Subject reallocated all of the participant support funds that
were to be spent on funding the collaboration to fund his research, without
authorization from the NSF PM.
The Improper Acts
         1.      False Annual Report
      On 23 May 2001, the Subject submitted a n annual report stating the "
counterpart is expected during the second year."lg However, according to FPR3, the
Subject has learned within 6 months of the award's inception, that ER could not
participate.20
     If FPR3 was accurate in this regard, then the Subject's statements i n his first
annual report were necessarily false. Moreover, according to ER, the Subject never
contacted him a t all during the time frame that the award was active; thus, ER did
not tell the Subject he encountered difficulties obtaining authorization.
        2.       False Final Project Reports
      The Subject submitted three final project reports-FPR1, FPR2 and FPR3-
listing ER a s a collaborator, when no such collaboration had existed. I n addition, i n
FPR2, the Subject listed ER a s a n author of one of his papers that was "in
preparation."
      These statements are directly refuted by ER's statement that he had not
interacted with the Subject a t all during the award period, hadn't spoken to or
visited with the Subject during the award period, and hadn't participated a t all in
providing samples or engaging i n work on any paper authored by the Subject.
        3.       The Subiect's lack of candor with the OIG
     Finally, on 2 March 2004, Subject made false statements in both a n interview
with OIG investigators, and in a sworn affidavit provided to the OIG investigators.

17 Appendix   (L).
18   Ibid.
19 Appendix (B).
20 Appendix (F), pp. 1-2.
During the interview, the Subject continued to insist he had collaborated with ER.
He asserted ER could not visit due to difficulties obtaining a VISA after 9/11/2001,
but that despite this inability to visit, the collaboration still took place. Specifically,
he asserted ER had provided samples to him for the research, and had collaborated
with him in authoring a research paper.
     Further, the Subject provided a sworn statement, i n which he stated i n
pertinent part:
               "We, [ER] and myself [the Subject] have collaborated on a research
               grant . . .. I collected some samples from         , and the Collaborator
               sent some samples. . . . During these years, samples were analyized,
               and results were collected. Results were provided to the
               Collaborator. There is a paper jointly prepared by the US and
                           Collaborator on the results of this study submitted for
               publication in the . . . Journal."
     The Subject's sworn statement is directly refuted by ER's statement that
during the period of the award, he was never contacted by the Subject, never
provided samples to the Subject, and never collaborated on any paper with the
Subject. Rather, the Subject first contacted him in November 2003, and only
provided him a manuscript of a paper i n March 2004, months after the award
closed, and only after Subject provided this sworn affidavit.
R e f e r r a l t o the USAO
     Based upon the above facts, OIG concluded the Subject made four false
statements to NSF, a s well a s a false statement to NSF OIG during a n interview
and in a sworn affidavit. Because these false statements were material, we believed
the Subject violated both civil and criminal statutes21 a n d we therefore referred the
matter to the United States Attorney's Office (USAO) a t the Eastern District of
Virginia (EDVA).22
      The USAO EDVA accepted our referral and eventually contacted the Subject
notifying him of its intent to file a complaint against him. He and his attorney23
met with the Assistant United States Attorney (AUSA) and representatives of OIG
to discuss the matter. Although the AUSA agreed to move forward, due to the
availability and location of our foreign witness, and the AUSA's caseload, it was
determined t h a t it would take a significant amount of time to prosecute the Subject,
and that the cost may be significant due to the location of a key witness. Therefore,
i n the interest of saving time and money, the AUSA agreed to "decline[] prosecution
of the case against [the Subject] i n lieu of NSF administrative action."24



21 18 U.S.C. 3 1001, and 31 U.S.C. 3 3729(a)(2).
22 [redacted.].
23 [redacted].          C

24 Appendix (M).
        Universitv's Actions
             We notified the University about the Subject's actions and false statements.
        After reviewing the facts, the University took corrective action. It required him to
        repay the participant support costs via a charge on his general account and
        overhead on future research grants with which he is associated. Additionally, the
        University barred the Subject indefinitely "from serving a s a PI, Co-PI, or budget
        executive on any future federal or state grants. [He] may continue to serve as a
        research associate on any such grants."25
        OIG's Assessment                                       \




             NSF h a s the authority to debar a n individual for "Violation of the terms of a
        public agreement or transaction so serious a s to affect the integrity of a n agency
        program . . .."26 Such a violation occurs when the individual commits a "willful
        violation of a statutory or regulatory provision or requirement applicable to a public
        agreement or transaction. . .."27 Furthermore, NSF has the authority to debar a n
        individual for "Any other cause of so serious or compelling a nature that it affects
        [the subject of the debarment action's] present responsibility."28
        A. The Subiect's Actions
            Outlined below are the specific actions for which this debarment action is being
        recommended:
                 1. Filing a False Annual Report
             '
             As noted above, the Subject filed a n annual report on 23 May 2001 in which he
        stated t h a t he was collaborating with ER and expected a site visit to occur in the
,       following year. However, the Subject submitted contradictory statements i n FPR3,
        in which he stated that by the time he filed the first annual report, he did not
        anticipate that a site visit would be possible. Moreover, according to ER, the
        Subject did not contact him until after the expiration of the award. Therefore, a
        preponderance of the evidence establishes that Subject made material false
        representations to NSF i n his annual report.
                 2. Filing Three False Final Project Reports       *


             As noted above, by filing three false Final Project Reports on 18 August 2003, 9
        September 2003, and 27 October 2003, the Subject falsely represented that the
        collaboration existed, even asserting in two of the reports t h a t ER had co-authored a
        paper. This collaboration was material to the award a t issue. Therefore, t h e
        preponderance of the evidence establishes that Subject made material false
        representations to NSF regarding his work on the funded project.



    _   25 Appendix (N).
                                 \


        26 2 C.F.R. § 180,800 (b).
                    j 180.800 (b)(3).
        27 2 C.F.R. !
        28 2 C.F.R. § 180.800 (d).
      3. Lack of Candor to OIG Investigators
      As noted above, the Subject provided false information i n a n interview with
OIG investigators, falsely asserting t h a t collaboration existed with ER, when, in
fact, it had not. Moreover, the Subject drafted and signed a sworn affidavit falsely
asserting the collaboration had taken place, when it had not. The preponderance of
the evidence establishes t h a t no collaboration existed, and therefore, that Subject's
statements to OIG investigators were false.
      4. Violation of Federal Statutes, NSF Rules, and Regulations
     I n addition to the civil and criminal false claims act statutes noted above,
which the USA0 declined for reasons unrelated to merit, the Subject's false
statements, misappropriation of participant support funds, and change of the award
objective without prior written authorization of the PM violated NSF rules and
regulations. A primary purpose of NSF's International program, from which this
grant originated, is to award grants t h a t facilitate collaboration with international
researchers,            researchers i n the case of this grant, rather than focusing on
basic research. I n addition, the award was Subject to the terms of the Federal
Demonstration Partnership General Terms and Conditions (FDP-111, dated 7/1/97)
and the NSF Agency-Specific Requirements (dated 10198).
        Section 5(a) of the applicable FDP clearly requires the awardee to obtain prior
written approval to change the scope or objective of the award, and Article 2 of
Agency Specific Requirements, identified by the award letter, specifically provides
t h a t the grantee must obtain written approval from the cognizant NSF program
officer prior to the reallocation of funds budgeted for participant support costs. The
preponderance of the evidence establishes that the Subject changed the scope of this
award from a n               Collaboration to a basic research award, in which he
ultimately collaborated with his wife. He did so without prior written permission of
PM, who has unequivocally stated he would not have awarded these funds but for
this             collaboration. Moreover, the Subject apparently reallocated the
participant support funds t h a t were to be used to further the collaboration on his
own research, without the reguisite prior written approval from the PM.
Furthermore, the Subject exacerbated his actions by attempting to deceive both
NSF and NSF OIG regarding the existence of the collaboration. For these reasons,
the preponderance of the evidence establishes that the Subject violated the NSF
award terms and conditions applicable to his award.
B. The Subiect's Intent
     The weight of the evidence indicates the Subject knowingly and purposefully
sought to deceive both PM and OIG regarding the existence of a collaboration. As
discussed above, ER's statements directly refute the Subject's previous claims that
collaboration existed, and the Subject's FPR4 omits ER's name as collaborator,
conceding that he was not involved in the project.29

29   See Appendix H.
C. B u r d e n of Proof
     In debarment actions, the burden of proof lies on the acting agency (NSF) to
demonstrate by a preponderance of the evidence that cause for debarment exists.30
Here, the preponderance of the evidence indicates the Subject purposefully and
willfully violated the terms of a public agreement (the Award) by violating the
requirements related to the execution of it.31 In addition, the preponderance of the
evidence indicates the Subject intended to cover-up his acts by providing NSF and
OIG with misleading and false information. The Subject has engaged in acts that
are sufficiently compelling and serious that his present responsibility to manage
Federal funds has been compromised.32
D. Relevant Factors
     The debarment regulation lists 19 factors that the debarring official may
consider.33 Listed below are the factors pertinent to this case.
     1. Actual o r Potential H a r m or Impact    34

     NSF has a significant interest in ensuring the US          program funds actual
collaborations between US Scientists and             Scientists. In this case, PM
confirmed that but for the collaboration, the award would not have been funded,
and the collaboration was a key element of the award. By changing the scope of the
award without permission, and making false statements to NSF and OIG, the
Subject caused embarrassment to PM who learned directly from ER that this
collaboration never took place, despite the Subject's assertions to the contrary. In
addition, the Subject's actions were in blatant disregard of the award letter, NSF
award conditions, and the objectives of the program by which his award was funded.
     2. Frequency o r Duration of Incidents35
     The Subject's behavior included multiple false statements, spanning from May
2001 through March 2004, in an effort to deceive NSF and NSF OIG into believing
that collaboration took place, when it had not.
     3. P a t t e r n of Wrongdoing36
     OIG has not found, by preponderance of the evidence, that there have been any
additional instances of wrongdoing committed by the Subject unrelated to the
Award.



30 2 C.F.R. $   180.850, and 2 C.F.R. $180.855.
31 2 C.F.R. $   180.800@)(3).
32 2 C.F.R. §   180.800(d).
33 2 C.F.R. $   180.860.
34 2 C.F.R. §   180.860 (a).
35 2 C.F.R. $   180.860 (b).
36 2 C.F.R. $   180.860 (c).
      4. Role in Wrongdoing37
     The Subject was solely responsible for all of the false statements identified
above. Furthermore, the Subject committed these acts with full knowledge of their
impropriety to cover up the fact that he changed the objective of the award, and
reallocated participant support costs, without the required prior written .
authorization of the NSF PM.
      5. Acceptance of Responsibility38
     The Subject has yet to accept any responsibility for his actions associated with
this matter, though he did ultimately change the final project report to omit any
reference to ER.39 Since the inception of this investigation, the Subject has
contended there was a collaboration, or an attempted collaboration, and has not
admitted to any wrongdoing.


     The Subject has not repaid NSF for the wrongfully acquired funds. However,
the Institution has reimbursed NSF for improperly used participant support funds.
      7. Cooperation of the Subject41
    During the investigation, the Subject met with OIG investigators and with the
USA0 EDVA. However, he continued to claim that he had collaborated with ER
when he had not.
      8. Position Held by Subject42
    At the time the wrongdoing was committed, the Subject was the Principal
Investigator on the Award.
      9. Organizational Action43
     As discussed above, the Institution agreed to and did return the participant
support funds that were not appropriately used, and took these funds via a tax on
his general account and overhead on future research grants with which he is
associated. Additionally, the University barred the Subject "from serving as a PI,
Co-PI, or budget executive on any future federal or state g r a n t ~ , " 4though
                                                                            ~     it has
allowed him to continue to serve as a research associate on any such grants.




3l2  C.F.R. § 180.860 (0.
38 2 C.F.R. § 180.860 (g).
39 Appendix (H).
40 2 C.F.R. § 180.860 (h).
41 2 C.F.R. § 180.860 (i).
42 2 C.F.R. § 180.860 (k).
43 2 C.F.R. 5 180.860 0).
44 Appendix (N).
      10.O t h e r Factors45
    There is no evidence that the Subject diverted any of the misappropriated
funds from this grant towards his own personal use or the personal use of others.
     The other cons:derations listed i n the debarment regulation do not appear
relevant to this matter.
                                       Recommendations
    Consistent with the need to protect the interests of the public and the NSF, we
recommend that NSF take the following actions a s a final disposition of this case:
          Debar the Subject for a period of 3 years from final disposition of this case;
          Prohibit the Subject from serving a s a peer reviewer advisor or consultant for
          three years from the final disposition of this case.


                                       Subiect's X e s p o n s e
     The subject responded46 to our draft ROI. He indicated he felt he carried out
his obligations a s proposed by conducting his research and sending a n invitation to
ER. As noted in this ROI, the subject did not actually send ER a n invitation.
Irrespective of the invitation, the fact remains t h a t the subject did not collaborate
with ER as proposed, and he misrepresented hls failed collaboration as a successful
one to his PM in his multiple final project reports. We concluded the subject's
response did not require any changes to our report.




45   2 C.F.R. § 18-260 (s).
46   The subject's response is Appendix (0).
